                                                                Issue Date
                                                                         February 20, 2008
                                                                Audit Report Number
                                                                             2008-KC-1002




TO:        Debra L. Lingwall, Coordinator, Omaha Public Housing Program Center,
             7DPHO

           Henry S. Czauski, Acting Director, Departmental Enforcement Center, CV

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, Kansas City
               Region, 7AGA

SUBJECT: The Schuyler Housing Authority, Schuyler, Nebraska, Improperly Used
           Public Housing Funds to Support a Non-HUD Assisted Living Program



                               HIGHLIGHTS

 What We Audited and Why

            We audited the Schuyler Housing Authority (Authority) because the U.S.
            Department of Housing and Urban Development (HUD) believed that the
            Authority was operating a nonfederal assisted living program to the
            detriment of its public housing program.

            Our objective was to determine whether the Authority improperly spent
            public housing assets when developing and operating an assisted living
            program.

 What We Found
            The Authority inappropriately used more than $78,000 in public housing
            funds to pay expenses of a non-HUD assisted living program. In addition,
            the Authority improperly allowed the assisted living entity to collect more
            than $60,000 in public housing rent. Further, the Authority did not
           maintain tenant records or accurately report tenant data to HUD for
           assisted living participants.

What We Recommend


           We recommend that HUD require the Authority to obtain from the non-
           HUD assisted living entity repayment of approximately $54,000 for
           expenses paid on its behalf as of July 2007. We also recommend that
           HUD require the Authority to collect about $25,000 in public housing
           tenant rents that the non-HUD entity had not transferred to the Authority
           as of October 2007. We further recommend that HUD require the
           Authority to implement controls to separate public housing revenues and
           expenses from those of the assisted living program. Finally, we
           recommend that HUD monitor the Authority to ensure that it does not
           continue to inappropriately support the assisted living program.

           For each recommendation without a management decision, please respond
           and provide status reports in accordance with HUD Handbook 2000.06,
           REV-3. Please furnish us copies of any correspondence or directives
           issued because of the audit.

Auditee’s Response


           We provided the draft report to the Authority on January 31, 2008, and
           requested a response by February 15, 2008. It provided written comments
           on February 14, 2008. The Authority generally agreed with our findings
           and recommendations.

           The complete text of the auditee’s response, along with our evaluation of
           that response, can be found in appendix B of this report.




                                        2
                        TABLE OF CONTENTS


Background and Objectives                                                          4

Results of Audit
      Finding 1: The Authority Inappropriately Used Public Housing Funds to Pay    6
                  Expenses of a Non-HUD Assisted Living Program
      Finding 2: The Authority Inappropriately Allowed a Non-HUD Assisted Living   11
                  Entity to Collect Public Housing Rents
      Finding 3: The Authority Did Not Maintain Tenant Records or Report Tenant    13
                  Data to HUD for All Assisted Living Participants

Scope and Methodology                                                              15

Internal Controls                                                                  16

Appendixes
      A. Schedule of Questioned Costs and Funds to Be Put to Better Use            17
      B. Auditee Comments and OIG’s Evaluation                                     18




                                        3
                 BACKGROUND AND OBJECTIVES

The Schuyler Housing Authority (Authority) is a small public housing authority in
Schuyler, Nebraska. It owns and operates a 49-unit high rise public housing building
(known as Schuyler Manor) and 10 scattered site units. The Authority is funded almost
exclusively by the U.S. Department of Housing and Urban Development (HUD). HUD
provided operating and capital funds to the Authority totaling $385,000 for fiscal years
2004 through 2007.

To participate in HUD’s public housing programs,
the Authority entered into an annual contributions
contract with HUD on November 6, 1995. The
contract defines the terms and conditions under
which the Authority agreed to develop and operate
all projects under the agreement. A project is any
public housing developed, acquired, or assisted by
HUD under the United States Housing Act of
1937, as amended. Further, the contract describes
the appropriate uses of HUD-provided operating
and capital funds.

In accordance with its agency plan, a public
housing agency may form and operate wholly owned or controlled subsidiaries or other
affiliates. Such wholly owned or controlled subsidiaries or other affiliates may be
directed, managed, or controlled by the same persons who constitute the board of
directors or similar governing body of the public housing agency or who serve as
employees or staff of the public housing agency but remain subject to other provision of
law and conflict of interest requirements. Further, a public housing agency, in
accordance with its agency plan, may enter into joint ventures, partnerships, or other
business arrangements with or contract with any person, organization, entity, or
governmental unit with respect to the administration of the programs of the public
housing agency such as development housing or providing supportive/social services
subject to either Title I of the United States Housing Act of 1937, as amended, or state
law.

In 2004, HUD allowed the Authority to obtain a bank loan to modernize Schuyler Manor
and set up a nonfederal assisted living program for qualified public housing tenants. The
efforts included adding a kitchen and dining facility for the assisted living program and
converting an apartment to office space for the program. The Authority completed the
modernization efforts in late 2005 at a cost of more than $950,000. In addition to the
loan proceeds of $429,000, the Authority used $401,000 in capital funds and $121,000 in
operating reserves to complete the renovations.

The Authority’s assisted living program, operated by Whispering Pines Inc. (Whispering
Pines), opened in November 2005. Whispering Pines provides a variety of services to the
public housing residents who require assisted living services. Some public housing


                                            4
residents may also qualify for benefits under Nebraska’s Medicaid Waiver program. The
assisted living services include

   •   Three meals per day,
   •   Adult day care/socialization activities,
   •   Escort assistance,
   •   Health maintenance activities,
   •   Assistance with housekeeping activities and laundry,
   •   Medication assistance,
   •   Making arrangements for transportation, and
   •   Various personal care activities.

The Authority is governed by a five-member board of commissioners, all of whom are
also board members for Whispering Pines. The Authority’s executive director manages
the day-to-day operations of the Authority and is also the assisted living administrator for
Whispering Pines.

Our audit objective was to determine whether the Authority improperly spent public
housing assets when developing and operating an assisted living program.




                                             5
                            RESULTS OF AUDIT

Finding 1: The Authority Inappropriately Used Public Housing
             Funds to Pay Expenses of a Non-HUD Assisted
             Living Program
The Authority inappropriately used more than $78,000 in public housing funds to pay
expenses of a non-HUD assisted living program operated by Whispering Pines. This
condition occurred because the Authority lacked policies and procedures to define the
treatment of expenses common to the Authority and Whispering Pines. In addition, the
Authority’s board of commissioners believed that public housing funds could be used for
the assisted living program until it was financially self-sustaining. As a result, the
Authority did not have sufficient public housing funds to pay its routine operating
expenses.


 Improper Use of Authority
 Funds for Assisted Living
 Program


              The Authority inappropriately used nearly $60,000 in public housing
              funds for direct costs of the assisted living program. Section 9 of the
              annual contributions contract between the Authority and HUD states that
              the Authority may use public housing funds only for the payment of the
              costs and operation of the projects covered by the annual contributions
              contract. The Authority’s annual contributions contract with HUD did not
              cover the assisted living program; therefore, the Authority was not
              permitted to use public housing funds to pay expenses of that program.
              Further, HUD’s approval letter for the assisted living program stated that
              the Authority could not use public housing funds to support the provision
              of assisted living services.

              The following table describes the direct costs that the Authority paid on
              Whispering Pines’ behalf from June 2005 through July 2007.

                                    Direct costs
               Liability insurance                          $    13,810
               Workers compensation insurance               $     7,417
               Employee health insurance                    $    16,161
               Employee salaries                            $    14,650
               Miscellaneous costs                          $     7,767
               Total direct costs                           $    59,805




                                           6
           The Authority added Whispering Pines to its policies for liability, workers
           compensation, and employee health insurance. Consequently, the
           Authority was billed and paid for Whispering Pines’ portion of the
           premiums. In addition, the Authority paid for employee salaries and other
           miscellaneous costs at the time that the assisted living program began in
           November 2005 because Whispering Pines did not have the resources to
           fund startup costs.

           The Authority’s executive director notified HUD in November 2006 that
           the Authority did not have sufficient public housing funds to pay for its
           operations. Upon further review, HUD became aware that the Authority
           had inappropriately used public housing funds to pay for Whispering
           Pines’ expenses. HUD immediately notified the Authority that it must
           cease using public housing funds to pay for the assisted living program
           and that Whispering Pines must repay the Authority for any public
           housing funds used to support its program.

           The Authority did not have detailed records showing what public housing
           funds that it had used to support the assisted living program. Although
           Whispering Pines subsequently began repaying the Authority in limited
           amounts, the Authority continued to use public housing funds to support
           the assisted living program. As of July 2007, Whispering Pines had repaid
           the Authority about $17,500 for the insurance premiums but still owed
           nearly $20,000. Whispering Pines had also reimbursed the Authority
           about $6,500 for employee salaries and other miscellaneous expenses, but
           still owed more than $15,500 as of July 2007.

Overhead Costs of Assisted
Living Program Incurred by
Authority

           The Authority inappropriately incurred overhead costs of the assisted
           living program when it allowed Whispering Pines to use the Authority’s
           space, equipment, and utilities free of charge. Although Whispering
           Pines’ articles of incorporation stated that it would lease the Authority’s
           property to implement the assisted living program, the Authority did not
           execute a lease agreement with Whispering Pines.

           Beginning in November 2005, the Authority provided Whispering Pines a
           fully furnished office, kitchen, and dining facility but did not require
           Whispering Pines to pay for using the space or equipment. In addition, the
           Authority incurred at least $18,000 in increased utility expenses
           attributable to Whispering Pines’ operations from November 2005 through
           July 2007.




                                         7
            The graph below shows the Authority’s utility expenses for fiscal years
            2002 through 2007, including the periods in which the Authority
            renovated the public housing building and Whispering Pines implemented
            the assisted living program. The Authority incurred a significant rise in
            utility costs while renovating the public housing building. After
            renovations were complete, the utility expenses remained significantly
            higher than in past years, mainly due to the assisted living program
            beginning in November 2005.




            In November 2006, HUD notified the Authority that it needed to establish
            and collect a reasonable monthly rent from Whispering Pines. However,
            as of September 2007, Whispering Pines had not paid rent or otherwise
            reimbursed the Authority for its use of public housing space, equipment,
            or utilities.

Authority’s Inadequate
Controls

            The Authority had not developed written policies and procedures that
            defined the treatment of expenses that were common to the Authority and
            Whispering Pines. Further, the Authority’s board of commissioners
            believed that HUD’s restriction against using public housing funds to
            support the assisted living program did not apply until the program was
            financially self-sustaining.

Authority’s Financial
Problems

            Because the Authority paid more than $78,000 of Whispering Pines’
            expenses, it did not have sufficient funds to pay its own routine operating
            expenses. The Authority’s operating account had a negative cash balance
            from January to July 2007. As a result of cash shortages, the Authority


                                         8
          incurred nearly $5,000 in penalties and finance charges. These charges
          included insufficient funds charges, overdraft penalties, and late fees and
          finance charges from vendors. Further, the $78,000 is equivalent to more
          than six months of public housing funding for the Authority .

          In July 2007, the Authority had to use $10,000 of its capital funds to
          sustain operations and recover from a negative cash position. Capital
          funds are generally intended to be used for development, financing, and
          modernization of public housing. Therefore, these funds were not
          available to the Authority for these purposes .

          If the Authority continues to pay Whispering Pines’ expenses, it will risk
          not being able to sustain its own operations and mission to provide decent
          and safe housing for low-income families, the elderly, and persons with
          disabilities.

Recommendations

          We recommend that the Coordinator of the Omaha Public Housing Program
          Center

          1A. Ensure that the Authority implements adequate policies and procedures
              to segregate its direct and overhead expenses from those of Whispering
              Pines. This will ensure that an estimated $102,000 that HUD will
              provide to the Authority for its operations in the next year will be put
              to better use.

          1B. Require the Authority to obtain repayment from Whispering Pines for
              the expenses paid on Whispering Pines’ behalf, including the $35,521
              for direct costs of the assisted living program and approximately
              $18,711 for its share of utility expenses that had not been repaid to the
              Authority as of July 2007. Repayments should be deposited into the
              Authority’s public housing program account.

          1C. Require the Authority to obtain repayment from Whispering Pines or
              other nonfederal sources for penalties and finance charges, including
              $4,901 identified as of July 2007. Repayments should be deposited
              into the Authority’s public housing program account.

          1D. Ensure that the Authority executes an acceptable lease agreement with
              Whispering Pines for its use of the public housing space, equipment,
              and utilities.

          1E. Ensure that the Authority collects rent retroactively from Whispering
              Pines for the period from November 2005 to the present and in doing



                                        9
     so, consider the amount collected for utilities during this same period
     as recommended in recommendation 1B.

1F. Monitor the Authority and its use of public housing funds to ensure
    that it provides no additional HUD funds for Whispering Pines’
    operations. If HUD identifies additional use of HUD funds, it should
    take appropriate actions, which may include requiring the Authority to
    cease the assisted living program if it cannot sustain its operations
    without HUD financial assistance.

1G. Take appropriate administrative actions against the Authority for
    violating the annual contributions contract with HUD and refer to
    finding 2 for additional support for administrative actions.

We recommend that the Director of the Departmental Enforcement Center

1H. Impose appropriate administrative sanctions against the Authority’s
    executive director and members of its board of commissioners for
    violating HUD rules. Also refer to finding 2 for additional support for
    administrative sanctions.




                             10
Finding 2: The Authority Inappropriately Allowed a Non-HUD
             Assisted Living Entity to Collect Public Housing
             Rents
The Authority inappropriately allowed Whispering Pines to collect more than $60,000 of
public housing rent from assisted living participants. This condition occurred because the
Authority’s board of commissioners allowed its executive director to also serve as
Whispering Pines’ administrator without providing adequate oversight of her actions. As
a result, the Authority’s public housing program did not have use of all of its rent revenue
for more than 19 months and Whispering Pines owed more than $25,000 in public
housing rent to the Authority as of October 2007.


 Non-HUD Entity Collected
 Public Housing Rents
               The Authority inappropriately allowed Whispering Pines to collect more
               than $60,000 in public housing rent from November 2005 through October
               2007. The Authority’s annual contributions contract provides that the
               Authority is to deposit all public housing operating receipts, including
               tenant rents, for the Authority to use in conducting its public housing
               program.

               The Authority’s executive director, who also served as the assisted living
               administrator for Whispering Pines, told us that it was too complicated for
               tenants to write separate checks for public housing rent and assisted living
               services. Therefore, she allowed tenants to write one check to Whispering
               Pines that included both costs. Consequently, Whispering Pines collected
               public housing rents and deposited them into its account. However, the
               Authority did not ensure that Whispering Pines transferred the rents to the
               public housing program.

 No Separation of Duties

               Each housing authority’s board of commissioners is responsible for the
               operations of the authority. In this capacity, the Authority’s board of
               commissioners allowed its executive director to also serve as Whispering
               Pines’ administrator without providing adequate oversight of her actions.
               Therefore, the executive director solely controlled the financial activities
               of both organizations for nearly the entire period of Whispering Pines’
               operations.




                                            11
Lost Use of Tenant Rent
Revenue

           The Authority’s public housing program did not have use of all of its rent
           revenue for more than 19 months. Further, Whispering Pines owed more
           than $25,000 in public housing rent to the Authority’s public housing
           program as of October 2007.

           As reported in finding 1, the Authority experienced financial difficulties
           due to cash shortages, which could have been alleviated if it had collected
           the public housing rents from Whispering Pines. If the Authority
           continues to allow Whispering Pines to collect public housing rents, the
           Authority will continue to risk its public housing revenues and ability to
           meet its own financial responsibilities.

Recommendations


           We recommend that the Coordinator of the Omaha Public Housing Program
           Center

           2A. Require the Authority to immediately discontinue the practice of
               allowing Whispering Pines to collect public housing rents.

           2B. Ensure that the Authority implements policies and procedures to
               segregate its public housing revenues from the assisted living program.
               The policies and procedures should require tenants to pay public
               housing rents separately from assisted living services, or for the
               Authority to collect the rents and assisted living service fees and then
               transfer the service fees to Whispering Pines.

           2C. Require the Authority to collect the correct amount of public housing
               rents owed by Whispering Pines (including approximately $25,000
               owed as of October 2007). Repayments should be deposited into the
               Authority’s public housing program account.

           2D. Monitor the Authority to ensure that the board of commissioners
               provides adequate oversight of the executive director’s actions or
               provide for separate management of the two organizations.

           2E. Monitor the Authority’s collection of rent from the assisted living
               participants to ensure that these funds are deposited into the public
               housing program account.




                                        12
Finding 3: The Authority Did Not Maintain Tenant Records or
             Report Tenant Data to HUD for All Assisted Living
             Participants
The Authority did not maintain tenant records or accurately report tenant data to HUD for
6 of 15 assisted living participants. This condition occurred because the Authority’s
board of commissioners allowed its executive director to also serve as Whispering Pines’
administrator without providing adequate oversight of her actions. As a result, HUD’s
ability to make appropriate funding decisions or to detect fraud, waste, and abuse in the
public housing program may have been negatively affected.



 No Public Housing Records for
 Assisted Living Participants

              The Authority did not maintain tenant records for 6 of 15 assisted living
              participants. Federal regulations require public housing agencies to
              maintain complete and accurate records for at least three years. All
              assisted living participants were also public housing tenants. Therefore,
              the Authority should have maintained tenant records, including eligibility
              determinations and tenant leases, for all assisted living participants.

              In addition, the Authority did not report required tenant data to HUD for
              the same six assisted living participants residing in the public housing
              building. Therefore, HUD was not aware that the six tenants and their
              families were occupying public housing units. Federal regulations require
              public housing agencies to report 100 percent of their tenant data to HUD.

              The Authority’s executive director said that she did not know why she did
              not have certain tenant records for the six assisted living participants, or
              why she did not report the required tenant information to HUD.

Inadequate Oversight by
Board of Commissioners


              As previously explained, housing authorities’ boards of commissioners are
              responsible for their operations. In this capacity, the Authority’s board of
              commissioners allowed its executive director to also serve as Whispering
              Pines’ administrator without providing adequate oversight of her actions.
              The executive director was responsible for maintaining records for both
              organizations for nearly the entire period of Whispering Pine’s operations.




                                           13
HUD Oversight of Authority
Hindered

           Inaccurate or incomplete information submitted to HUD affected its
           ability to make appropriate funding decisions or to detect fraud, waste, and
           abuse in the public housing program.

Recommendations

           We recommend that the Coordinator of the Omaha Public Housing Program
           Center

           3A. Require the Authority to document that all assisted living participants
               are eligible public housing tenants and have entered into public
               housing lease agreements for the appropriate rent amount.

           3B. Ensure that the Authority reports required tenant information to HUD
               for all assisted living tenants.




                                        14
                      SCOPE AND METHODOLOGY

Our review generally covered the period from January 2004 through October 2007. To
achieve our audit objective, we conducted interviews with the Authority’s current and
former executive directors and its development consultant and former fee accountant. We
also interviewed HUD staff in the Omaha, Nebraska, and Kansas City, Kansas, Offices of
Public Housing. In addition, we interviewed assisted living participants and/or their
responsible parties.

We reviewed the Authority’s policies and procedures, general ledgers, audited financial
statements, construction budgets, invoices, check registers, rent registers, and construction
progress reports. We also reviewed the Authority’s five-year administrative plan, board of
commissioners meeting minutes, correspondence with HUD, annual contributions contracts,
and bank loan documents. Further, we reviewed Whispering Pines’ articles of
incorporation, bylaws, board of directors meeting minutes, line of credit documents, general
ledgers, and bank statements. In addition, we reviewed federal and state regulations.

We analyzed the Authority’s historical utility costs for its fiscal years 2002 through 2005.
Using its historical average annual increase of 6.3 percent, we estimated the Authority’s
utility costs for fiscal years 2006 and 2007 if it had not added significant building space and
a commercial kitchen to the public housing property for the purposes of the assisted living
program. We estimated that the Authority incurred about $18,000 in increased utility
expenses due to adding the assisted living program to the Authority’s public housing
building.

We reviewed reports generated by the Authority’s computerized accounting system for
evidence of expending public housing assets without prior HUD approval. We used the
computerized data for background information purposes only. We did not conduct tests
of the data or controls governing the data. We did not use the data to support audit
conclusions but used only original source documents to reach our conclusions.

We assigned a value to the potential savings to the Authority if HUD implements
recommendation 1A. If HUD implements this recommendation requiring HUD to ensure
that the Authority implements adequate policies and procedures to segregate its expenses
from those of the non-HUD assisted living program, it will protect an estimated $102,000
that HUD will provide to the Authority for its operations in the next year. The estimate will
be a recurring benefit; however, our estimate reflects only the initial year of this benefit.
We performed on-site work from April through November 2007 at the Authority’s office
located at 712 F Street in Schuyler, Nebraska.

We performed our review in accordance with generally accepted government auditing
standards.




                                              15
                          INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls
               We determined the following internal controls were relevant to our audit
               objectives:

               •      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use
                      is consistent with laws and regulations.

               •      Safeguarding of resources – Policies and procedures that
                      management has implemented to reasonably ensure that resources
                      are safeguarded against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A significant weakness exists if management controls do not provide
               reasonable assurance that the process for planning, organizing, directing, and
               controlling program operations will meet the organization’s objectives.

 Significant Weaknesses
               Based on our review, we believe the following item is a significant
               weakness:

               •      The Authority lacked adequate controls to ensure compliance with
                      federal regulations and its annual contributions contract with HUD
                      (see findings 1, 2, and 3).




                                             16
                               APPENDIXES

Appendix A

           SCHEDULE OF QUESTIONED COSTS
          AND FUNDS TO BE PUT TO BETTER USE

     Recommendation           Ineligible 1/   Unreasonable or     Funds to be put
            number                             unnecessary 2/      to better use 3/

           1A                                                           $102,000
           1B                     $54,232
           1C                                          $4,901
           2C                     $25,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or federal,
     state, or local polices or regulations.

2/   Unreasonable/unnecessary costs are those costs not generally recognized as
     ordinary, prudent, relevant, and/or necessary within established practices.
     Unreasonable costs exceed the costs that would be incurred by a prudent person in
     conducting a competitive business.

3/   Recommendations that funds be put to better use are estimates of amounts that
     could be used more efficiently if an Office of Inspector General (OIG)
     recommendation is implemented. This includes reductions in outlays,
     deobligation of funds, withdrawal of interest subsidy costs not incurred by
     implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are
     specifically identified.

     The $102,000 represents the estimated amount of operating and capital funds that
     will be available to the Authority within the next year. If HUD ensures that the
     Authority implements appropriate policies and procedures to segregate public
     housing expenses from those of the assisted living program, HUD funds will be
     used for their intended purposes.




                                         17
Appendix B

     AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




                        18
Comment 1




            19
                     OIG Evaluation of Auditee Comments


Comment 1   The Authority’s board of commissioners and its executive director are
            responsible for the Authority’s operations, including ensuring that the
            Authority does not violate federal requirements. As explained in the
            report, the Authority violated federal requirements when it improperly
            spent public housing funds on the assisted living program and caused the
            Authority to encounter significant financial difficulties. Further, it
            continued to use federal funds to support the assisted living program after
            HUD instructed it to cease using federal funds for the nonfederal program.

            In addition, the board of commissioners and executive director
            inappropriately allowed the assisted living entity to collect and maintain
            control of the public housing rents. This violated federal requirements and
            contributed to the Authority’s financial problems because the Authority
            did not have use of the rent funds to meet its own obligations. Therefore,
            we believe that administrative actions and sanctions are warranted.




                                        20
